jfyA? 1

n

Order

Michigan Supreme Court
Lansing, Michigan

March 27, 2020

Bridget M. McCormack,
Chief Justice

159938

David F. Viviano,
ChiefJustice Pro Tem

ROMEO WILSON
Plaintiff-Appellant,
5.

v
DEBRA SUE GABITES and JORDAN GABITES,
Defendants-Appellees.

SC: 159938
COA: 342477
Kent CC: 16-008952-NI

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,
Justices

/

On order of the Court, the application for leave to appeal the June 18, 2019
judgment of the Court of Appeals is considered, and it is DENIED, because we are not
persuaded that the questions presented should be reviewed by this Court.

v

m

%

Vi

4

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Cc
March 27, 2020

t0323

Clerk

o
If this opinion indicates that it is “FOR PUBLICATION, ” it is subject to
revision until final publication in the Michigan Appeals Reports.
• h\

*3

fm id

STATE OF MICHIGAN
COURT OF APPEALS

L.
ROMEO WILSON,

•

•^7 K?

UNPUBLISHED
June 18, 2019

Plaintiff-Appellant,

DEBRA SUE GABITES and JORDAN GABITES,

No. 342477
Kent Circuit Court
LC No. 16-008952-NI

Defendants-Appellees.

Before: K. F. Kelly, P.J., and FortHood and Redford, JJ.
Per Curiam.
Plaintiff, acting in propria persona, appeals as of right the trial court’s order granting
defendants’ motion for a directed verdict. For the reasons stated in this opinion, we affirm.
I. BASIC FACTS
This case arises out of a traffic accident between plaintiff, a bicyclist, and defendant,
Jordan Gabites, the driver of a vehicle owned and insured by her mother, defendant Debra Sue
Gabites. On September 23, 2015, plaintiff was riding his bicycle across the street in the
crosswalk when the Gabites’ vehicle made contact with the back end of his bike, causing him to
flip over the bike. Plaintiff could not see the Gabites’ vehicle because a dump truck blocked his
view. In the police report, plaintiff was faulted for the accident, by concluding that he cut across
the street on a red traffic light. Plaintiff disputed that narrative, contending that the police
misidentified the direction he was traveling to reach that conclusion. Rather, he testified that the
“walk” sign was displayed when he crossed the street. Plaintiff characterized the incident as a
freak accident, citing the fact that plaintiff and defendant shared the same date of birth.
On the contrary, defendant testified that she was stopped at a red traffic light when the
light changed to green. After looking both ways, she started to drive when the garbage or utility

The singular “defendant” refers to Jordan Gabites.

//

¥

truck in the next lane paused or slowed down, but the change in pace did not give her cause for
concern. Defendant kept driving and hit plaintiff with the car. She immediately slammed on the
brakes, but plaintiff travelled over the hood, landing toward the passenger side of the car.
Defendant testified that plaintiff was not bicycling in the crosswalk. She first saw plaintiff at the
time of impact, but denied that she was travelling fast at the time. Defendant did not receive a
ticket or citation for the accident, and she noted that the police report attributed fault to plaintiff.
Defendant opined that there was nothing she could have done to avoid striking plaintiff.
At trial, plaintiffs testimony lacked focus. Nonetheless, he conveyed that he suffered
injuries to his back, neck, head, jaw, and a tooth as well as suffered hearing loss, and he
attributed them to the accident. However, in his deposition, he cited injuries to his back, left
knee, right shoulder, head, and migraines. On redirect examination, plaintiff clarified that his
current health issue was a lack of strength in his right arm and indicated that most of his other
issues were resolved. However, plaintiff acknowledged suffering from other medical issues
throughout the years and did not admit his medical records to demonstrate specific injuries were
caused by the accident. Although he delineated a long list of injuries, plaintiff testified that he
learned to manage pain through pressure points and worked out at a gym following the accident.
Additionally, plaintiffs testimony regarding his pre and postaccident lifestyle was jumbled. He
acknowledged that he began to receive disability payments a few years before the accident, but
stated that he continued to perform odd jobs. Plaintiff gave no indication that he had to cease
this work after the accident. The trial court granted defendants’ motion for directed verdict,
concluding that there was insufficient evidence to support the claim that plaintiff suffered a
serious impairment of body function as a result of the accident. Plaintiff appeals this decision.
II. DIRECTED VERDICT2
Plaintiff seemingly contends the trial court improperly granted the defense motion for
directed verdict because defendant admitted to striking plaintiff with the vehicle, he suffered
injury, and a monetary verdict should have been rendered by the jury in light of his medical bills.
Because plaintiff did not establish an objective manifestation of an important body function that
affected his general ability to lead a normal life, the court properly granted the directed verdict.
This Court reviews a trial court’s decision regarding a motion for a directed verdict de
novo. Meagher v Wayne State University, 222 Mich App 700, 708; 565 NW2d 401 (1997).
“When evaluating a motion for a directed verdict, a court must consider the evidence in the light
most favorable to the nonmoving party, making all reasonable inferences in favor of the
nonmoving party.” Id. “Directed verdicts are appropriate only when no factual question exists
upon which reasonable minds may differ.” Id.

2 As an initial matter, we note that the content of plaintiffs brief does not comport with MCR
7.212(C), and plaintiff is held to the same standards as an attorney. Totman v Royal Oak Sch
Dist, 135 Mich App 121, 126; 352 NW2d 364 (1984). Furthermore, a party may not merely
declare a position and leave it to this Court to discover and rationalize the basis for the claim.
Southfield Ed Ass’n v Bd of Ed of Southfield Public Sch, 320 Mich App 353, 379; 909 NW2d 1
(2017). Nonetheless, we reach the merits of the issue raised on appeal.

-2-

“Tort liability is limited under the Michigan no-fault act.” Patrick v Turkelson, 322 Mich
App 595, 606, 913 NW2d 369 (2018). According to MCL 500.3135(1), “[a] person remains
subject to tort liability for noneconomic loss caused by his or her ownership, maintenance, or use
of a motor vehicle only if the injured person has suffered death, serious impairment of body
function, or permanent serious disfigurement.” In this case, plaintiff apparently claimed
entitlement to noneconomic damages because he suffered serious impairment of body function as
a result of the accident.
MCL 500.3135(5) defines “serious impairment of body function” as “an objectively
manifested impairment of an important body function that affects the person’s general ability to
lead his or her normal life.” In McCormick v Carrier, 487 Mich 180, 195; 795 NW2d 517
(2010), the Michigan Supreme Court stated that three prongs are necessary to establish a
serious impairment of body function’: (1) an objectively manifested impairment (2) of an
important body function that (3) affects the person’s general ability to lead his or her normal
life. . The question whether an injured party has suffered a serious impairment presents a
question of law for the court if there is no factual dispute surrounding the nature and extent of the
person s injuries or any factual dispute is immaterial to determining whether the standard was
met. MCL 500.3135(2)(a); McCormick, 487 Mich at 190-191.
In this case, the trial court properly granted defendants’ motion for a directed verdict
because even viewing the evidence in the light most favorable to plaintiff, see' Meagher '222
Mich App at 708, plaintiff failed to prove the three prongs necessary to establish serious
impairment of body function. Specifically, plaintiff did not demonstrate that his injuries affected
ms general .cability ,fo..Tead.&.jjjOEmal -Jife. McCormick, 487 Mich at 200-202. He did not
adequately compare his preaccident life with his postaccident life. Plaintiff acknowledged that
he received disability benefits before the accident and performed odd jobs for money. However
he failed to delineate how the accident impacted his work. Plaintiff also did not offer anv
testimony regarding any activities that he did before the accident that he could no longer perform
because of the injuries caused by the accident. Accordingly, even considering the evidence in
plaintiff s favor, see Meagher, 222 Mich App at 708, he failed to establish that any impairment
fen IT! °f ?^aCCldent affected hls general ability to lead his normal life. See McCormick
Mich at 200-202. Therefore, the trial court properly granted defendants’ motion for a
directed verdict.
Affirmed.

/s/ Kirsten Frank Kelly
/s/ Karen M. Fort Hood
/s/ James Robert Redford

-3-

STATE OF MICHIGAN

typ)/h

U

IN THE CIRCUIT COURT FOR THE COUNTY OF KENT
ROMEO WILSON.

Case No. 16-08952-NI

Plaintiff.

Hon. Paul J. Sullivan
OPINION & ORDER
GRANTING DEFENDANTS'
MOTION FOR A DIRECTED
VERDICT

JORDAN GABITES, and
DEBRA SUE GABITES,
Defendants.
Appearances:
Jesse Nash (P79465)
Gower Reddick
Attorneys for Plaintiff
2526 Woodmeadow Drive SE, Suite A
Grand Rapids, MI 49546

Brigitte D. Chiroyan (P75780)
Law Offices of Terrance Lynch
Attorneys for Defendants
1 Towne Square, Suite 470
Southfield, MI 48076

OPINION & ORDER GRANTING DEFENDANTS
- MOTION FOR a DTRFCTFn
VERDICT

reasoning would be
as well as for the
reasons already stated on the record, defendants'
motion
for
a
directed
verdict
is
GRANTED and
judgment is entered in favor of defendants.
I. FACTS AND BACKGROUND
This case arises from an accident on Sentemhpr 93 onis

u

•

,.

__

on
causing hnn ,o fall off hi, b,ke. Plans,iff was then ,ak™ ,o ,he bosp,™ aid

1

24

'.

'

°Vei' "’e C°“rSe °fS^rTVSf
WeekS' a”d P**™»'T'
"-e

However. „„ medical £*£
but the testimony was

o»,„‘;r=X'^
his case following her testimony. Defendants then moved for
lack oi evidence regarding negligence,
hearing

Plaintiff rested
a directed verdict due to an alleged
After

mjsssssss^^nrssss^.
supplement the reasoning for the decision as it relates to serious

is now being issued to
impairment of body function.

II. STANDARD OF REVIEW
evide„c^™^^“

°«*

499 (2009). -A party is Entitled to a directed lerditf iffheTvid
favorable to the nonmovine party fails to establish a HA
*■* ^

ad'°'0gy’ 286 Mich APP 49°.
Jiewed 111 the !'ght most
mnei *

III. LAW & ANALYSIS
failed tnAS rele''ant,£ere’ defendants argue plaintiffs claims fail
as a matter of law because he
failed to present sufficient evidence to establish senous
impairment
of body function. The Court
agrees.
loss caused by hforlrTw"^!^ ST remai"S
person has buffered tX’^s“S
disfigurement.' MCL 500.3135( I). Plaintiffs claims

‘°10,1 ,iabili,y f°r ’^ncmc
""" ^
or permanent serious

to recovery. As defined in the n^fauh »« “°ftheeVldence ,n ord/r“> Potentially be entitled

condthons, (2) of an important body function (a bodTZc.ion TvaZL^Ze, "
cll°ende £t‘ JSS5'

TT* S°Ught ,0 ad™' 2 S*aCk of*'"* w«

was sustained due to the rules regarding hear
6, enSe counse^ objected and the objection
803(6). 902(11).
g
say and aut;hentication of business records. See MRE
2

£

'

inj“red PerS°n) that (3) affects <*>' Peon's general ability to lead his
or her
nonnal hfe (influences some of the plaintiffs capacity to live in his
or her nonnal manner of
living). McCormick v Carrier, 487 Mich 180, 215 (2010).
"Objectivdv IIS"'6 AsTS H,0 Pr°blemS ,hC firS‘ Pr°”8 reqUirmg an tapaimtent to be
0Djectivel> manifested . As for this requirement, m cases involving subjective comnlaints of
pain and suffering, such complaints are not enough on their own and "plaintiffs must introduce
suffertov
b !sh“8 that re's a Physical basis for their subjective complaints of pain
and
suirermg .... McCormick v Carrier 487 Mich ISO IQS /">mm /• *
i
.
an

bu* ~

.mpainnenf Photos from the hospital show plain,rff with
rnan.fcstatJsTe^

S? =v-“dt- tr^ss&srZ
an

imony provided to them, and plaintiff s testimony regarding the nature of his injuries
impairments was scattered and vague. He also was not able to testify as to what doctors told him
regarding his medical conditions (at least for purposes of the truth of any matters asserted) When
plaintiff rested his case, the jury was left only with evidence of subjective compl“n?rfpai^
uffenng along with some pictures showing scrapes and bruises that were not aliened to he
manifestations of any impairment. Even when viewing all of the evidence m a light mostfevorable
to plaintiff and giving him the benefit of all possible reasonable inferences, ^
^
that
is
simply
not
enough to establish an objectively manifested impairment.
•
.
any °b,eCtlVely manifested impairment would also need to be shown to be of an
important body function and to affect plaintiffs general ability to lead his nonnal life Th
teshmony in this case left 1, unclear exactly wha, ftnctions wer C S a d how any p rticuto
tmpatnnen, tmpacted plaintiffs ability to lead his life. There was also little tSCabou
3 Pt °f PlaiMiff S Pre-accide"' Ufety'e and what specifically changed
kind' of nhilf/jnry were to reach the ur,supportable conclusion that there
were
some nd of objectively manifested impairment, the jury would need to engage in even more
speculation to tie that particular impairment to an important body function and then to find that
such impairment was what really what impacted plaintiffs ability to lead his normal life (as
opposed to any subjective complaints that were not shown to have physical basis)
(

fi,rg :isi"

s,mp,y not g,ven mm*ev,dence *° ^ a

U

Order

/

respectfully GRANTED and judgment is hereby entered in favor of defendants.
Plaintiff s

This is a final order that closes the case.

■MOL j

Dated: February 5, 2018

JLjIUJt

Paul J. Sullivan, Circuit Judge (P24139)

h

4

f

Additional material
from this filing is
available in the
Clerk's Office.

